APPENDIX

1a

APPENDIX A
STATE OF MINNESOTA
IN SUPREME COURT
OFFICE OF
APPELLATE COURTS
Al9-1058
March 12, 2020
John Devos,
Relator,
vs.
Rhino Contracting, Inc., Self-Insured,
Respondent,
and
Riverview Health, Blue Cross Blue Shield MN/Blue
Plus,
and Altru Health System,
lntervenors,
and
Special Compensation Fund,
Respondent.
ORDER

2a

Based upon all of the files, records, and
proceedings herein,
IT IS HEREBY ORDERED that the motion of
relator John Devos, for leave to file a reply in further
support of the petition for rehearing. be, and the
same is. denied.
IT IS FURTHER ORDERED that the petition
of relator John Devos for rehearing pursuant to
Minn. R. Civ. App. P. 140.01 be, and the same is,
denied.
Dated: March 12, 2020

BY THE COURT:
s/ David Lillehaug
David L. Lillehaug
Associate Justice

3a

APPENDIX B
John DEVOS, Relator,
v.
RHINO CONTRACTING, INC., Self-Insured,
Respondent,
and
Riverview Health, Blue Cross Blue Shield MN/Blue
Plus, and Altru Health System, Intervenors,
and
Special Compensation Fund, Respondent.
A19-1058
|
February 7, 2020
Attorneys and Law Firms
Mark L. Rodgers, Kristen M. Rodgers, James H.
Perkett, Rodgers Law Office, P.L.L.C., Bemidji,
Minnesota, for relator.
Keith Ellison, Attorney General, Kelly S. Kemp, Rory
H. Foley, Assistant Attorneys General, Saint Paul,
Minnesota, for respondent Special Compensation
Fund.
Considered and decided by the court without oral
argument.
ORDER
David L. Lillehaug, Associate Justice
This case is before us on the appeal of relator
John Devos from a decision of the Workers’

4a

Compensation Court of Appeals (WCCA), which
affirmed the dismissal of his claim petition. The
WCCA concluded that relator’s exclusive remedy for
workers’ compensation benefits is under the workers’
compensation system in North Dakota. Relator
raises statutory issues and a constitutional issue not
decided below: whether the limitation of Minnesota
workers’ compensation benefits in Minn. Stat. §
176.041, subd. 5b (2018), violates the Equal
Protection Clause of the Minnesota Constitution,
Article I, Section 2.
Turning first to the constitutional issue, on
such a claim we use a form of rational-basis review.
See Schuette v. City of Hutchinson, 843 N.W.2d 233,
239 (Minn. 2014); Gluba ex rel. Gluba v. Bitzan &
Ohren Masonry, 735 N.W.2d 713, 721 (Minn. 2007).
We presume that a workers’ compensation statute is
constitutional, and relator “bears the burden of proof
on his constitutional claim.” Gluba, 735 N.W.2d at
719, 726. After carefully considering the arguments
of the parties, we conclude that relator has not
carried his burden to demonstrate that the statute is
unconstitutional.
Turning next to the statutory issues, relator
contends that he was not “an employee hired in
North Dakota” and that his injury did not arise out
of “temporary work in Minnesota” within the
meaning of Minn. Stat. § 176.041, subd. 5b. After
carefully considering the arguments of the parties,
we affirm the decision of the WCCA on the statutory
issues.

5a

Based upon
proceedings herein,

all

the

files,

records,

and

IT IS HEREBY ORDERED that the decision of the
Workers’ Compensation Court of Appeals filed June
12, 2019, be, and the same is, affirmed without
opinion. See Hoff v. Kempton, 317 N.W.2d 361, 366
(Minn. 1982) (stating that summary dispositions
have no precedential value because they do not
commit the court to any particular point of view,
doing no more than establishing the law of the case).
IT IS FURTHER ORDERED that all other claims
and requests for relief are denied.

6a

APPENDIX C
JOHN DEVOS, Employee/Appellant, v. RHINO
CONTRACTING,
INC./SELF-INSURED,
Employer/Respondent, and RIVERVIEW HEALTH,
BLUE CROSS BLUE SHIELD MINN./BLUE PLUS,
and ALTRU HEALTH SYS., Intervenors, and
SPECIAL COMP. FUND.
WORKERS’ COMPENSATION COURT OF
APPEALS
JUNE 12, 2019
No. WC18-6240
EXCLUSIONS
FROM
COVERAGE
–
SUBSTANTIAL EVIDENCE. Substantial evidence
supported the finding that the employee was hired in
North Dakota by a North Dakota employer, for the
purposes of applying Minn. Stat. § 176.041, subd.
5(b), which provides an exclusion from Minnesota
jurisdiction where an employee so employed and
hired was injured during temporary work in
Minnesota.
STATUTES CONSTRUED – MINN. STAT. §
176.041, subd. 5(b). To determine whether work in
Minnesota was “temporary” within the meaning of
this provision, the extent of work performed for the
employer in Minnesota during a single calendar year,
from January 1 to December 31, must be reviewed.
For an injury arising out of work performed on a
specific date, the calendar year in which the date of
injury falls is the calendar year that must be used
pursuant to the statutory requirements.

7a

Determined by:
Deborah K. Sundquist, Judge
Patricia J. Milun, Chief Judge
David A. Stofferahn, Judge
Compensation Judge: Jerome G. Arnold
Attorneys: Mark L. Rodgers, Kristen M. Rodgers,
and James H. Perkett, Rodgers Law Office, P.L.L.C.,
Bemidji, Minnesota, for the Appellant. Michael
Garbow, Garbow Law Office, Bemidji, Minnesota, for
the Respondent.
Affirmed.
OPINION
DEBORAH K. SUNDQUIST, Judge
The employee appeals a Findings and Order
on Remand in which the compensation judge found
that he lacked extraterritorial jurisdiction pursuant
to Minn. Stat. § 176.041, subd. 5(b) which grants
North Dakota, not Minnesota, jurisdiction where the
employee lives in Minnesota, is injured in Minnesota,
yet was hired in North Dakota by a North Dakota
employer, and the injury arose out of temporary
work in Minnesota. We affirm.
BACKGROUND
John Devos, the employee, has lived in the
Crookston, Minnesota, area for most of his life. On
April 7, 2011, while in Grand Forks, North Dakota,
the employee applied for and was offered a seasonal

8a

job as a laborer for Rhino Construction (Rhino), a
North
Dakota
employer.[1]
Rhino
provides
underground utility construction and digging of lines
for fiber optics, cable, telephone, gas, water, and
sewer lines. During the winter months, when the
ground is frozen, Rhino lays off all but about five
permanent employees.
During the 2011 season, the employee worked
for Rhino in both North Dakota and Minnesota,
working more than 240 hours in Minnesota.[2] In
December 2011, at the end of a shift, Rhino co-owner,
Andrew Lamoureux, asked the employee and his coworkers which of them wanted to “go home,” i.e., stop
work for the season. The employee raised his hand
and then left work. The employee testified that Mr.
Lamoureux simply said, “all right, we’ll see you guys
later.” (T. 22-23.) Thereafter, the employee applied
for North Dakota unemployment benefits and
indicated that his unemployment was temporary in
nature. He hoped that Rhino would call him back to
work for the 2012 season. From December 2011 to
March 2012, the employee did not look for work.
In March 2012, at his home in Crookston,
Minnesota, the employee took a call from Steve
Abbey, also a co-owner of Rhino. The employee
recalled that Abbey told the employee to “get back
into the shop on Monday with your bags packed” and
join a work crew about to leave for a job site. (T. 26.)
The employee did not complete a new job application
or undergo another interview. Unlike 2011, in 2012,
the employee worked mostly in North Dakota and
worked less than 240 hours in Minnesota.

9a

On September 24, 2012, while at work for
Rhino in East Grand Forks, Minnesota, the employee
suffered a work-related injury to his femoral
artery.[3] The employee was transported to the
hospital and underwent surgery. During recovery,
the employee received workers’ compensation
benefits through North Dakota’s Workforce Safety
and Insurance (ND WSI).
The employee did not return to work with the
employer. After April 17, 2014, ND WSI discontinued
the employee’s disability and rehabilitation benefits,
explaining that the employee had completed
rehabilitation. The employee then sought benefits
under the Minnesota Workers’ Compensation Act,
naming the Special Compensation Fund (Fund) as
insurer. Thereafter, ND WSI suspended all benefits
as the employee had filed for Minnesota benefits.
The Fund filed a motion to dismiss, asserting
that the employee’s claim was barred by Minn. Stat.
§ 176.041, subd. 5b. The Fund argued that the
employee was not entitled to benefits under the
Minnesota Workers’ Compensation Act because he
was hired in North Dakota by a North Dakota
employer and his alleged injury arose out of
temporary work in Minnesota. The matter was
stricken from the calendar at the request of the
employee. Upon reinstatement, the Fund renewed its
motion to dismiss. The matter was considered
without an evidentiary hearing at a special term
conference. The compensation judge issued a
Findings and Order on Motion to Dismiss granting
the Fund’s motion to dismiss the employee’s claim

10a

petition. The employee appealed the dismissal to this
court.
On appeal, we concluded that the complex
legal issue of jurisdiction in this case required an
evidentiary hearing as the parties had not agreed to
a stipulated set of facts under Minn. Stat. § 176.322.
We vacated the order of dismissal and remanded for
factfinding on the issues of when and where the
employee was hired in 2012 and whether Rhino is a
North Dakota employer. We declined at the time to
address arguments which had been raised by the
employee on appeal regarding the ambiguity in
interpreting the term “calendar year” and the
constitutionality of the statutory exclusion provision.
The matter went to hearing on remand, and in
Findings and Order on Remand filed November 16,
2018, the compensation judge found that the
employee was hired in 2011 in North Dakota by a
North Dakota employer. He found that the 2012
work injury occurred at a jobsite in East Grand
Forks, Minnesota and the employee was at that time
a Minnesota resident. It was stipulated that the
employee worked more than 240 hours in Minnesota
in 2011, but less than 240 hours in Minnesota in the
2012, the year he was injured. The judge also found
that the March 2012 phone call from Steve Abbey to
the employee was a recall to ongoing seasonal work
for the employer, rather than a new hiring event by
the employer. The compensation judge dismissed the
employee’s claim petition finding that the employee’s
exclusive remedy was under the workers’
compensation system in North Dakota pursuant to

11a

Minn. Stat. § 176.041, subd. 5(b). The employee
appeals.

12a

STANDARD OF REVIEW
On appeal, the Workers’ Compensation Court
of Appeals must determine whether “the findings of
fact and order [are] clearly erroneous and
unsupported by substantial evidence in view of the
entire record as submitted.” Minn. Stat. § 176.421,
subd. 1(3). Substantial evidence supports the
findings if, in the context of the entire record, “they
are supported by evidence that a reasonable mind
might accept as adequate.” Hengemuhle v. Long
Prairie Jaycees, 358 N.W.2d 54, 59, 37 W.C.D. 235,
239 (Minn. 1984). Where evidence conflicts or more
than one inference may reasonably be drawn from
the evidence, the findings are to be affirmed. Id. at
60, 37 W.C.D. at 240. Similarly, findings of fact
should not be disturbed, even though the reviewing
court might disagree with them, “unless they are
clearly erroneous in the sense that they are
manifestly contrary to the weight of evidence or not
reasonably supported by the evidence as a whole.”
Northern States Power Co. v. Lyon Food Prods., Inc.,
304 Minn. 196, 201, 229 N.W.2d 521, 524 (1975).
A decision which rests upon the application of
a statute or rule to essentially undisputed facts
generally involves a question of law which the
Workers’ Compensation Court of Appeals may
consider de novo. Krovchuk v. Koch Oil Refinery, 48
W.C.D. 607, 608 (W.C.C.A. 1993), summarily aff’d
(Minn. June 3, 1993).

13a

DECISION
Minn. Stat. § 176.041, subd. 4, provides that,
as a general principle, an employee of an out-of-state
employer injured while temporarily performing
duties in Minnesota may seek workers’ compensation
benefits under Minnesota law so long as that
employee elects to forego benefits under another
jurisdiction.[4]
Minn. Stat. § 176.041, subd. 5(b), however,
provides a limited exception to this general rule.
That subdivision reads as follows:
Subd.
5b.
North
Dakota
employers.
Notwithstanding the provisions of subdivision 4,
workers' compensation benefits for an employee
hired in North Dakota by a North Dakota employer,
arising out of that employee's temporary work in
Minnesota, shall not be payable under this chapter.
North Dakota workers' compensation law provides
the exclusive remedy available to the injured worker.
For purposes of this subdivision, temporary work
means work in Minnesota for a period of time not to
exceed 15 consecutive calendar days or a maximum
of 240 total hours worked by that employee in a
calendar year.
The case before us hinges on the
interpretation and application of the language of this
statutory exclusion from Minnesota jurisdiction.
In his Findings and Order on Remand, the
compensation judge found that the employee was
hired in North Dakota and that he failed to work

14a

more than 15 consecutive calendar days or 240 total
hours in Minnesota during the calendar year in
which he sustained the injury. In applying the
statute to these factual findings, the judge concluded
that the employee’s injury was excluded from
Minnesota jurisdiction.
On appeal from the Findings and Order on
Remand, the employee argues that the judge erred in
reaching the factual finding that the employee was
hired in North Dakota. The employee also argues
that the definition of temporary work in Minn. Stat.
§ 176.041, subd. 5(b) should, under the facts of the
present case, most appropriately be read as referring
not to the calendar year in which the employee was
injured, but to the preceding year of employment.
Finally, the employee argues that Minn. Stat. §
176.041, subd. 5b violates the equal protection, due
process, and commerce clauses under the Minnesota
and United States constitutions.
1. Rehire or Recall
The judge found that the employee’s return to
Rhino in March 2012 was a recall to his previous
position, and not a rehire. In arguing that the return
to work was a rehire, the employee bases his
argument on collective bargaining agreements and
that at the time of the lay off in December 2011 no
agreement or contract existed regarding his
continued employment. Without an agreement
regarding a return to work, the employee argues that
he would need to be rehired. The Fund disagrees,
maintaining that there was only one date of hire,
April 7, 2011, in Grand Forks, North Dakota; that

15a

the employee’s employment did not end in December
2011 at the end of the season; that the employee was
seasonally and temporarily laid off; and that the
employee was not rehired by the employee in 2012
because his employment in 2011 was never
terminated.
Within the issue of jurisdiction, we note that
there is no definition of “hire,” “rehire,” or “recall” in
the Minnesota Workers’ Compensation Act. This
court has analyzed questions regarding the situs of
hire by applying common law contract principles.
McCoy v. Ingersoll Rand, 40 W.C.D. 1027 (W.C.C.A.
1987), aff’d 423 N.W.2d 685 (Minn. 1988); Pauley v.
Donco, 46 W.C.D. 14 (W.C.C.A. 1991), aff’d 478
N.W.2d 763 (Minn. 1992). Within the context of a
hire or rehire in a seasonal position as here, we note
as instructive Larson’s Workers’ Compensation Law
143.04(2)(b) which states:
The making of a contract for hire or
employment within the state is usually deemed to
create the relation within the state. The relation,
having thus achieved a situs, retains that situs until
something happens that shows clearly a transference
of the relation to another state. This transfer is
usually held to occur when either a new contract is
made in the foreign state or the employee acquires in
the foreign state a fixed and non-temporary
employment situs.
Here, the parties agree that in April 2011, the
employee was hired by a North Dakota employer in
Grand Forks, North Dakota. North Dakota was the
situs of the contract for hire and continued to be the

16a

situs until another event happened that showed a
clear transference of the employment relation to
another state. The compensation judge here
reasonably concluded that did not happen. The
employee volunteered to be laid off in December
2011. The judge concluded that the form of his
application for unemployment benefits through
North Dakota showed an apparent expectation that
his unemployment with Rhino was temporary and
that he would be returning to work there. The
employee conducted no job search from December
2011 to March 2012. When the employee took the
phone call from Steve Abbey, he did not complete a
new application, did not undergo drug testing, nor
interview with Rhino before beginning work in
March 2012. No new paperwork was completed by
the employee in March 2012.
The issue of where this employee was hired is
a question of fact rather than one of law.[5] See, e.g.,
Morrisette v. Harrison Intern. Corp., 486 N.W.2d 424
(Minn. 1992). Based on the record, the judge
reasonably
concluded that
the employment
relationship did not end during the employee’s layoff,
but was temporarily on hold for the winter months
until the employer was ready to resume operations in
the spring. We affirm.
2. Temporary Work in a Calendar Year
The compensation judge found that the
determination whether the employee’s work in
Minnesota was temporary was based on the hours he
worked in the calendar year in which the injury
occurred. (Finding 7.) The employee argues that the

17a

term “calendar year” referenced in Minn. Stat. §
176.041, subd. 5(b) is ambiguous. He maintains that
it could mean the calendar year before the injury, the
calendar year of the date of injury, or the 52 weeks
preceding the date of injury. If the former, then the
employee’s work in Minnesota was more than
“temporary” under this subdivision and therefore
jurisdiction rests in Minnesota.
When reading a statute, words and phrases
are to be interpreted “according to rules of grammar
and according to their common and approved usage.”
See, e.g., Ekdahl v. Independent Sch. Dist. #213, 851
N.W.2d 874, 74 W.C.D. 463 (Minn. 2014), citing
Minn. Stat. § 645.08(1) (2012). The term “calendar
year” has a well-established meaning both in
common parlance and as a legal term of art. Black’s
Law Dictionary defines a calendar year as “the
period between January 1 to December 31 inclusive.”
Accordingly, we think it is clear that as to whether
the work in Minnesota was temporary under this
provision is to be determined based on work done
during a specific January to December calendar year
rather than during the one-year interval extending
back from the date of injury, or the previous calendar
year in 2011.[6]
Minn. Stat. § 176.041, subd. 5(b) expressly
applies only to an injury “arising out of that
employee’s temporary work in Minnesota.” Where, as
here, the injury “arises out of” the work performed on
the date of injury, the calendar year reviewed must
be the year during which that work occurred, i.e., the
calendar year of the date of injury.

18a

The compensation judge’s interpretation is
consistent with the statutory language and rules of
statutory construction. We therefore affirm.
3. Constitutional Arguments
Finally, the employee raises the issue of the
constitutionality of Minn. Stat. § 176.041, subd. 5(b)
and whether it violates the equal protection clause of
the United States and Minnesota constitutions. He
also raises the issue that Minn. Stat. § 176.041, subd.
5(b) violates the employee’s procedural and
substantive due process rights, and the commerce
clause of the United States Constitution. These are
issues preserved for the Minnesota Supreme Court,
and not to be addressed by this court. Quam v. State
of Minn., Minn. Zoological Garden, 391 N.W.2d 803,
39 W.CD. 32 (Minn. 1986).
[1] While Rhino had a separate Minnesota business,
Rhino Minnesota, the employee was not hired by
Rhino Minnesota. Rhino Minnesota and Rhino ND
merged in February 5, 2014, to form Rhino
Construction, the employer. (Ex. 17.)
[2] Stipulation 9, Findings and Order on Remand,
November 16, 2018. The number of hours worked in
Minnesota defines the term “temporary work.” Minn.
Stat. § 176.041, subd. 5(b).
[3] Stipulation 3.
[4] Subdivision 4 provides as follows:

19a

Subd. 4. Out-of-state employment. If an employee
who regularly performs the primary duties of
employment outside of this state or is hired to
perform the primary duties of employment outside of
this state receives an injury within this state in the
employ of the same employer, such injury shall be
covered within the provisions of this chapter if the
employee chooses to forgo any workers' compensation
claim resulting from the injury that the employee
may have a right to pursue in some other state,
provided that the special compensation fund is not
liable for payment of benefits pursuant to section
176.183 if the employer is not insured against
workers' compensation liability pursuant to this
chapter and the employee is a nonresident of
Minnesota on the date of the personal injury.
[5] The employee cites case law for the principle that
the employer was not obligated to bring him back to
work from a layoff in the absence of a written
contract of employment or collective bargaining
agreement. He argues that we must, therefore,
consider the telephone conversation asking him to
return to work after layoff as the equivalent of a new
offer of employment. We do not find this argument
persuasive, as the fact that an employment was at
will does not preclude a finding that the employment
relationship nonetheless continued in effect during a
seasonal layoff by implicit agreement of the parties.
[6] Although it is possible that the employee worked
more than 240 hours during the 52 weeks preceding
the date of injury, we note, also, that the record
contains no itemization of the total hours worked in

20a

Minnesota between
September 24, 2012.

September

24,

2011,

and

21a

APPENDIX D
STATE OF MINNESOTA
OFFICE OF ADMINISTRATIVE HEARINGS
_________________________________________________
WID: 7275365
DOI: 09-24-2012
JOHN DEVOS,
Employee.

OAH Case No. 7275365-CP-4691
Workers’ Compensation Judge
Jerome Arnold
FINDINGS AND ORDER ON
REMAND

v.
RHINO CONTRACTING INC,
Employer.
and
UNINSURED,
Insurer.
and
RIVERVIEW HEALTH, BLUE CROSS
BLUE SHIELD MN/BLUE PLUS, ALTRU
HEALTH SYSTEM,
Intervenors.
and
SPECIAL COMPENSATION FUND.
____________________________________________

22a

Following the remand from the Workers’
Compensation Court of Appeals, this matter came on
for hearing before Workers’ Compensation Judge
Jerome G. Arnold on September 19, 2018.
James Perkett, Attorney at Law, appeared on
behalf of John Devos. Laura B. Zajac, Attorney at
Law, appeared on behalf of the Special
Compensation Fund. Sean Marrin, Attorney at Law,
appeared on behalf of Rhino Contracting, Inc.
The record in this matter closed on October 19,
2018, upon receipt of briefs.
STATEMENT OF ISSUES
1.
Whether Rhino Contracting, Inc., is
excluded from Minnesota workers’ compensation
liability in this matter pursuant to Minn. Stat. §
176.041, subd. 5b.
2.
Whether the employee in 2012 was
rehired by Rhino Contracting, Inc., or was he
recalled to his existing position.
a.
If the employee was re-hired
(hired again) by Rhino Contracting, Inc. in 2012,
where did the hiring occur?
3.
Whether the reference to temporary
work in “a calendar year” in Minn. Stat. § 176.041,
subd. 5b, refers to the calendar year that the injury
occurred in.

23a

The parties
stipulations of fact:

agreed

to

the

following

STIPULATIONS OF FACT
1.
The employee was hired by Rhino
Contracting, Inc., in Grand Forks, North Dakota, on
April 7, 2011. The parties dispute the circumstances
surrounding the employee’s employment after the
fall of 2011, including whether he was re-hired (hired
again) or recalled in 2012.
2.
Rhino Contracting, Inc., is a North
Dakota employer for purposes of Minn. Stat. §
176.041, subd. 5b.
3.
The employee was injured in the course
and scope of his employment with Rhino Contracting,
Inc., on September 24, 2012.
4.
The employee’s injury on September 24,
2012, was in the nature of a stab wound to the left
femoral artery. The extent of this injury, and issues
related to claimed consequential injuries and
conditions, are reserved for a later hearing, if
needed.
5.
The employee’s September 24, 2012,
injury occurred at a jobsite in East Grand Forks,
Minnesota.
6.
At the time of the injury, the employee
was a Minnesota resident.

24a

7.
In 2012, the employee did not work
fifteen consecutive days in Minnesota.
8.
In 2012, the employee did not work
more than 240 hours in Minnesota.
9.
In 2011, the employee worked more
than 240 hours in Minnesota for Rhino Contracting,
Inc.
10.
The employee received North Dakota
workers’ compensation benefits as a result of his
September 24, 2012 injury.
11.
The employee’s disability and vocational
rehabilitation benefits ceased on April 17, 2014,
pursuant to an Order of North Dakota Workforce
Safety and Insurance (WSI) dated April 3, 2014.
12.
The employee filed a Claim Petition for
Minnesota Workers’ Compensation Benefits on June
19, 2014.
13.
The employee’s North Dakota Workers’
Compensation Benefits were suspended after June
18, 2014, because the employee filed a claim for
Minnesota Workers’ Compensation Benefits.
14.
The issues
employee is entitled to
Compensation Benefits
Petition, are reserved
necessary.

related to whether the
other Minnesota Workers’
as alleged in the Claim
for a later hearing, if

25a

Based upon all of the files, records, and
proceedings in this matter, the undersigned Workers’
Compensation Judge issues the following:
FINDINGS OF FACT AND CONCLUSIONS OF
LAW
1.
Rhino Contracting, Inc. is a North
Dakota corporation with offices in Grand Forks,
North Dakota. On April 17, 2011, the employee was
hired by Rhino Contracting, Inc. in Grand Forks,
North Dakota. Rhino Contracting, Inc. is a North
Dakota employer as that term is used in Minn. Stat.
§ 176.041, subd. 5b.
2.
The employee was injured on September
24, 2012, in the course and scope of his employment
with Rhino Contracting, Inc. wherein he suffered a
cut to his left femoral artery. The injury occurred at
a jobsite in East Grand Forks, Minnesota. At the
time of the injury, the employee was a Minnesota
resident.
3.
In 2012, the employee did not work 15
consecutive days in Minnesota nor did he work more
than 240 hours in Minnesota.
4.
In 2011, the employee worked more
than 240 hours in Minnesota for Rhino Contracting,
Inc.
5.
The employee volunteered for an early
seasonal layoff in 2011 and applied for North Dakota
workers’ compensation benefits. As the employee
stated he would be returning to his position with

26a

employer Rhino Contracting, Inc. in the spring of
2012, the employee received North Dakota
compensation benefits without having to conduct an
ongoing search for employment to continue his
receipt of benefits.
6.
In March 2012, the employee while in
Minnesota was recalled to work which he started the
following Monday without undergoing new applicant
processing, involving procedures, applications,
background checks, and the like. His first work was
apparently in Dickenson, North Dakota. His pay was
raised from $12.00/hr. to $13.00/hr. in April 2012.
The employee’s return to work for employer Rhino
Contracting, Inc. was a recall to his previous position
and not a rehire for any position with the employer.
7.
The employer Rhino Contracting, Inc.
operates on a calendar basis as opposed to a fiscal
year basis. Calendar year businesses end on
December 31 of the year in question. Fiscal year
businesses can end at any time during the year
except if it ended December 31 it would be deemed a
calendar year business. Reference to calendar year in
Minn. Stat. § 176.041, subd. 5b refers to calendar
year in which the injury occurs.
8.
Rhino Contracting, Inc. is excluded from
workers’ compensation liability in this matter
pursuant to Minn. Stat. § 176.041, subd. 5b. The
employee’s exclusive remedy is under the workers’
compensation system in North Dakota per Minn.
Stat. § 176.041, subd. 5b. Minnesota has no
jurisdiction for any workers’ compensation benefits
arising out of his September 24, 2012 work injury.

27a

Based upon these Findings of Fact and
Conclusions of Law, and for the reasons set forth in
the incorporated memorandum, the undersigned
Workers’ Compensation Judge makes the following:
ORDER
The request of the employer Rhino
Contracting,
Inc.
and
Minnesota’s
Special
Compensation Fund to dismiss the employee’s Claim
Petition is granted as the employee’s exclusive
remedy for workers’ compensation benefits related to
his September 24, 2012 work injury is under the
workers’ compensation system in North Dakota.
Dated: November 16, 2018
s/ Jerome G. Arnold____
Jerome G. Arnold
Workers’ Compensation
Judge
JGA:ps
Digitally Recorded
NOTICE
Notice is hereby given that any party
aggrieved by this Order may appeal it, or any portion
thereof, to the Workers' Compensation Court of
Appeals. An appeal must be filed with the Chief
Administrative Law Judge no later than 30 days
following service of this Order. An appeal must
contain the information required by Minn. Stat. §

28a

176.421 (2018), including the required $25.00 filing
fee.
MEMORANDUM
The position of the employer and Minnesota’s
Special Compensation Fund that the employee’s
exclusive remedy for claims related to his September
24, 2012 work injury is under the workers’
compensation system in North Dakota is adopted by
this court. As set forth herein, the employee was
hired in North Dakota in April 2011 and after a
seasonal layoff, was recalled to his position in the
spring of 2012. Per the statute (176.041, subd. 5b)
the employee’s exclusive remedy is under the
workers’ compensation system in North Dakota.
J. G. A.

29a

APPENDIX E
JOHN DEVOS, Employee/Appellant, v. RHINO
CONTRACTING, INC./UNINSURED,
Employer/Respondent, and ALTRU HEALTH SYS.,
RIVERVIEW HEALTH, and BLUE CROSS BLUE
SHIELD OF MINN. & BLUE PLUS, Intervenors,
and SPECIAL COMP. FUND, Respondent.
WORKERS’ COMPENSATION COURT OF
APPEALS
JANUARY 8, 2018
No. WC17-6075
PRACTICE & PROCEDURE. Where material facts
remain at issue and there were no stipulated facts by
the parties, the compensation judge erred by
determining that the employee had been recalled in
2012, hired in North Dakota, and by a North Dakota
employer, without an evidentiary hearing and by
dismissing the employee’s claim pursuant to
Minnesota Statutes section 176.041, subdivision 5b.
Determined by:
1.
Deborah K. Sundquist, Judge
2.
Patricia J. Milun, Chief
Judge
(Dissenting Opinion)
3.
David A. Stofferahn, Judge
Compensation Judge: Jerome G. Arnold
Attorneys: Mark Rodgers, James H. Perkett, and
Kristen M. Rodgers, Rodgers Law Office, P.L.L.C.,

30a

Bemidji, Minnesota, for the Appellant. Laura B.
Zajac, Special Compensation Fund, St. Paul,
Minnesota, for the Respondent.
Vacated and remanded.
MAJORITY OPINION
DEBORAH K. SUNDQUIST, Judge
The employee appeals from the compensation
judge’s order granting the Special Compensation
Fund’s motion to dismiss his amended claim petition.
We vacate the order.
BACKGROUND
On September 24, 2012, John Devos suffered
an alleged work-related injury while working in
Minnesota. The employee was working for Rhino
Contracting, Inc., which was based in Grand Forks,
North Dakota. The employee had worked for the
employer during both the 2011 and 2012
construction seasons. The parties do not dispute that
in 2012, the employee did not work fifteen
consecutive days in Minnesota, nor did he work more
than two-hundred forty hours in Minnesota.
However, a dispute does exist as to whether the
employee was recalled or rehired in 2012, and
whether that occurred in North Dakota where the
employer is based, or in Minnesota where the
employee lived.
In December 2014, the employee filed an
amended claim petition, seeking wage loss, medical,
and vocational rehabilitation benefits, and naming

31a

the Special Compensation Fund as insurer. The
Special Compensation Fund then filed a motion to
dismiss, asserting that the employee’s claim was
barred by Minn. Stat. § 176.041, subd. 5b, and
arguing that the employee was not entitled to
benefits
under
the
Minnesota
Workers’
Compensation Act because he was an employee hired
in North Dakota by a North Dakota employer and his
alleged injury arose out of his temporary work in
Minnesota. For nearly two years, the matter was
stricken from the calendar at the request of the
employee. Upon reinstatement, a special term
conference was scheduled to consider the Special
Compensation Fund’s motion to dismiss.
On March 27, 2017, Compensation Judge
Jerome Arnold held a special term conference via
telephone. No witness testimony was received,
though exhibits were submitted and appearances
were noted on behalf of both the employee and the
Special Compensation Fund. At the outset of the
conference, counsel for the employee indicated his
misunderstanding regarding the proceeding, stating
“I thought this was more in the nature of a
pretrial.”[1] Arguments were presented. However,
upon request of the employee’s counsel, the record
remained open for the submission of additional
evidence on the issue of whether the employee was
hired in Minnesota or North Dakota in 2012. Before
closure of the record, the employee did not submit
any additional evidence or testimony. Rather, the
employee submitted a formal objection to the motion
to dismiss. Therein, he argued that dismissal was not
appropriate because factual disputes existed. The
employee asserted the Special Compensation Fund

32a

bore the burden to prove, and failed to prove, that
the employee was recalled in 2012, that he was hired
in North Dakota, and that the employer was a North
Dakota employer.
The compensation judge issued a Findings and
Order on Motion to Dismiss dated May 11, 2017,
granting the Special Compensation Fund’s motion to
dismiss the amended claim petition. He found that
the employee had been recalled in 2012, that he had
been hired in North Dakota and by a North Dakota
employer, and because the work performed in
Minnesota was temporary, the employee’s claim is
barred under Minn. Stat. § 176.041, subd. 5b. The
employee appealed, citing as error the judge’s factual
determinations made to support his conclusion that
the employee’s claim for benefits in Minnesota was
barred and his dismissal of the claim without an
evidentiary hearing in the absence of a set of
stipulated facts. In addition, the employee also
asserts the provision at issue is unconstitutional and
appeals on that basis, as well.
STANDARD OF REVIEW
On appeal, the Workers’ Compensation Court
of Appeals must determine whether “the findings of
fact and order [are] clearly erroneous and
unsupported by substantial evidence in view of the
entire record as submitted.” Minn. Stat. § 176.421,
subd. 1(3). Substantial evidence supports the
findings if, in the context of the entire record, “they
are supported by evidence that a reasonable mind
might accept as adequate.”[2] Where evidence
conflicts or more than one inference may reasonably

33a

be drawn from the evidence, the findings are to be
affirmed.[3] Similarly, findings of fact should not be
disturbed, even though the reviewing court might
disagree with them, “unless they are clearly
erroneous in the sense that they are manifestly
contrary to the weight of evidence or not reasonably
supported by the evidence as a whole.”[4]
A decision which rests upon the application of
a statute or rule to essentially undisputed facts
generally involves a question of law which the
Workers’ Compensation Court of Appeals may
consider de novo.[5]
DECISION
The employee appeals from the dismissal of
his claim, arguing that the Special Compensation
Fund failed to establish the requirements under
Minn. Stat. § 176.041, subd. 5b, that would bar his
claim. This provision bars claims by employees who
are (1) hired in North Dakota, (2) by a North Dakota
employer, and (3) whose injuries arise out of that
employee’s temporary work in Minnesota.[6] The
employee’s appeal challenges all three components of
this provision.
The employee argues that because factual
disputes exist as to the circumstances of his hiring
and where it occurred, as well as to whether the
employer is a North Dakota employer, the
compensation judge’s dismissal of the matter without
a full evidentiary hearing on these factual disputes
was inappropriate. In his Findings and Order, the
compensation judge detailed the circumstances of the

34a

employee’s hire in the spring of 2011, and how it had
occurred in North Dakota. The compensation judge
then made a factual determination that the employee
had been “recalled” in the spring of 2012, and
returned to work after a meeting and testing in
North Dakota. He relied upon this factual
determination in concluding that, for purposes of
Minn. Stat. § 176.041, subd. 5b, the employee was
hired in North Dakota. Without explanation or
identification of evidence relied upon, the
compensation judge described the employer in his
findings as a North Dakota employer.
The telephone special term conference was on
the record, however, the transcript of the proceeding
is minimal. Documentary evidence was submitted by
the parties, though there was initial confusion as to
which exhibits were before the compensation judge.
Based upon a review of the transcript, it is clear that
counsel for the employee misunderstood the nature
of the conference and was not prepared to present
evidence to refute the motion to dismiss. That said,
however, counsel for the employee was clear about
his position that a factual dispute existed as to where
the employee was hired. The employee was given an
opportunity following the hearing to provide evidence
on this issue, and did not do so.[7]
The compensation judge made factual
determinations for which there is either no evidence
or it is unclear what evidence he had considered.
Based upon those factual determinations, the
compensation judge went on to make legal
conclusions with regard to the complex legal issue of
jurisdiction. Legal issues may be decided without an

35a

evidentiary hearing, but only if the parties agree to a
stipulated set of facts pursuant to Minn. Stat. §
176.322.[8] No stipulated facts were committed to the
record in this case, nor does it seem that would have
been plausible given employee’s counsel’s indication
that a factual dispute existed. Under the
circumstances, the dismissal is vacated and the
matter remanded for fact finding on the issues of
when and where the employee was hired in 2012,
and whether the employer is a North Dakota
employer.
The employee also contends there is ambiguity
in the language of Minn. Stat. § 176.041, subd. 5b,
that reasonably allows for more than one
interpretation of the term “calendar year” used to
specify time periods of temporary work. Because the
matter is vacated and remanded to the compensation
judge for further fact finding, we decline to address
the employee’s arguments in this regard. The
employee also raises the question of the
constitutionality of this provision. This is a question
for the Minnesota Supreme Court, and not one to be
addressed by this court.[9]
DISSENTING OPINION
PATRICIA J. MILUN, Chief Judge
The
majority’s
remand
requires
the
compensation judge to conduct a second hearing on
the same issues in this proceeding, when the
employee has failed to show, over a two year period,
that jurisdiction exists. For this reason, I respectfully
dissent.

36a

The majority has determined that genuine
issues of fact exist as to whether the employee’s
claim is compensable under Minn. Chap. 176. Based
on the exhibits in the record before the compensation
judge, the employee completed an application in the
employer’s Grand Forks, North Dakota office and
was hired that same day.[10] The employer is a North
Dakota corporation.[11] The employee worked 44.5
hours in Minnesota in the calendar year 2012, and
those hours did not fall over fifteen consecutive
days.[12] The foregoing facts are undisputed. If the
determinative statute at issue is Minn. Stat. §
176.041, subd. 5b, the employee does not qualify for
benefits
under
the
Minnesota
Workers’
Compensation Act.
The employee advanced an alternative theory
to qualify for Minnesota benefits, that the manner in
which the employee was recalled to work in 2012 by
the North Dakota employer renders the employee
hired in Minnesota. In cases where such recall has
occurred with the employee located in Minnesota and
the recall constitutes the final assent to resuming
work, the employee was hired in Minnesota, thereby
taking the matter out of Minn. Stat. § 176.041, subd.
5b.[13]
Here, the factual record is silent on the
manner in which the employee was recalled. The
only description of any recall process is made in the
argument advanced by the employee’s counsel. The
argument of counsel is not evidence.[14] The absence
of evidence supporting the employee’s theory is
reflected in the procedural posture of this
case.[15] The employee has had over 18 months to

37a

present the factual basis for this theory. Without
actual
evidence
supporting
the
employee’s
alternative theory of hiring, there is no basis for
finding the employee to be hired in Minnesota, and
thus this court must find that the compensation
judge’s decision is supported by the substantial
evidence in the record that the employee was hired in
North Dakota. The mere absence of evidence to the
contrary is not enough to contradict this conclusion.
I am concerned that the majority remands this
matter for a full evidentiary hearing on the issue of
jurisdiction. The long-standing practice for questions
of jurisdiction is to resolve that issue separately from
any other issue presented.[16] This was accomplished
on the date of the last hearing on the motion for
dismissal. This court has historically affirmed
similar determinations regarding jurisdiction on the
same procedural footing as the instant case.[17] I find
that the compensation judge followed the appropriate
procedure for addressing jurisdictional issues. For
the above stated reasons, I respectfully dissent.

[1]

Transcript at 6.

Hengemuhle v. Long Prairie Jaycees, 358
N.W.2d 54, 59, 37 W.C.D. 235, 239 (Minn. 1984).
[2]

[3]

Id. at 60, 37 W.C.D. at 240.

38a

Northern States Power Co. v. Lyon Food
Prods., Inc., 304 Minn. 196, 201, 229 N.W.2d 521,
524 (1975).
[4]

Krovchuk v. Koch Oil Refinery, 48 W.C.D.
607, 608 (W.C.C.A. 1993), summarily aff’d (Minn.
June 3, 1993).
[5]

[6]

Minn. Stat. § 176.041, subd. 5b, states:

North Dakota employers. Notwithstanding the
provisions of subdivision 4, workers’ compensation
benefits for an employee hired in North Dakota by a
North Dakota employer, arising out of that
employee’s temporary work in Minnesota, shall not
be payable under this chapter. North Dakota
workers’ compensation law provides the exclusive
remedy available to the injured worker. For purposes
of this subdivision, temporary work means work in
Minnesota for a period of time not to exceed 15
consecutive calendar days or a maximum of 240 total
hours worked by that employee in a calendar year.
In his supporting memorandum, the
compensation judge notes that the employee had
been given more than two years, but has yet to
provide evidence that he was not hired in North
Dakota. While we agree that the employee was given
ample opportunity to present evidence and has not
been prejudiced in that regard, we are concerned
that the basis for the compensation judge’s dismissal
of the employee’s claim was a jurisdictional defect
under Minn. Stat. § 176.041, subd. 5b, and not on
other grounds such as failure to prosecute the claim.
[7]

39a

Minn. Stat. § 176.322 states, in part, “If the
parties agree to a stipulated set of facts and only
legal issues remain, the … compensation judge may
determine the matter without a hearing based upon
the stipulated facts.” This section provides
determination of a case without a hearing with an
agreement between the parties to a set of stipulated
facts, leaving only legal issues. See Zuehlke by
Zuehlke v. Penrose Oil Co., slip op. (W.C.C.A. Jan.
24, 2001). This court has recognized that the
Minnesota Workers’ Compensation Act does not
provide for a summary judgment proceeding, and
that if evidence raises an issue of material fact, is
conflicting,
or
permits
reasonably
different
inferences, the matter should be considered by a trier
of fact. Zillmer v. Karen Lamb for minor S.L., 76
W.C.D. 397, 401 (W.C.C.A. Jun. 2, 2016) (citing Clay
v. Am. Residential Mortg. Corp., 56 W.C.D. 37, 41
(W.C.C.A. 1996) and Knapp v. Bud Meyer Truck
Lines, slip op. (W.C.C.A. Apr. 4, 1995)); see also Jesse
v. Nw. Airlines, Inc., slip op. (W.C.C.A. Sept. 14,
2000).
[8]

Quam v. State of Minn., Minn. Zoological
Garden, 391 N.W.2d 803, 39 W.C.D. 32 (Minn. 1986).
[9]

Ex. 5, Devos Deposition, at 20; Ex. 6,
Lamoureaux Deposition, at 23-24.
[10]

[11]

Ex. 6, Lamoureaux Deposition, at 6-13.

[12]

Exs. A and B, Abbey Affidavit.

See Summers v. N. Indus. Erectors, Inc.,
No. WC10-5092 (W.C.C.A. Sept. 15, 2010) (direct call
[13]

40a

of employee rendered hiring in Minnesota); Rhoades
v. K & C Distrib., slip op. (W.C.C.A. Feb. 11,
1994), summarily aff’d (Minn. Aug. 3, 1994); see
also Wefel v. Smith Truck Brokerage, slip op.
(W.C.C.A. Mar. 20, 1992) (contract signed in
Minnesota, hiring took place in Minnesota); see
also Houle v. Stearns-Rogers Mfg. Co., 279 Minn.
345, 157 N.W.2d 362, 24 W.C.D. 485 (1968); Pierce v.
Foley Bros., Inc., 283 Minn. 360, 373, 168 N.W.2d
346, 354-55 (1969) (offer and acceptance can be made
over telephone and location of employee controls).
See Glapa v. Fraser Shipyards, Inc., slip op.
(W.C.C.A. Aug. 13, 1999) (footnote 10).
[14]

The judgment roll in this matter indicates
that the Special Compensation Fund first moved to
dismiss for lack of jurisdiction in June 2015, and the
employee responded by moving to strike the claim
petition from the active calendar, which was done. In
June 2016, the employee moved to extend the
stricken status for 120 days to obtain additional
information, which was granted. In November 2016,
the stricken status was extended for another 90 days
at the request of the employee for the same reasons.
In February 2017, the employee moved for
reinstatement
to
the
active
trial
calendar, affirmatively stating that the case was
ready for trial. Compensation Judge Arnold issued
the order reinstating this matter to the active
calendar as well as all of the other interim orders.
[15]

Schultz v. Vigen Constr., slip op. (W.C.C.A.
Feb. 8, 1996) (hearing conducted with no oral
testimony, solely on issue of jurisdiction); see
[16]

41a

also Vandervest v. Jola & Sopp (J&S) Excavating,
slip op. (W.C.C.A. Nov. 21, 1995) (evidentiary
hearing on motion to dismiss is proper
procedure), summarily aff’d (Minn. Feb. 28, 1996).
Jurva v. M. A. Mortenson Cos., Inc., No.
WC13-5588 (W.C.C.A. Dec. 13, 2013).
[17]

42a

APPENDIX F
LE0007
STATE OF MINNESOTA
OFFICE OF ADMINISTRATIVE HEARINGS
WORKERS’ COMPENSATION DIVISION
WID No: 7275365
DOI:

09/24/2012

John Devos,
Employee,
vs.
Rhino Contracting,
Inc.,
Employer,

FINDINGS AND
ORDER ON
MOTION TO
DISMISS

And
Uninsured,
Insurer,
and
Altru Health System,
Riverview Health,
Blue Cross Blue Shield of MN & Blue Plus,
lntervenors,
and

43a

Special Compensation Fund.
The above-entitled matter came on for a
Special Term Conference (via telephone), pursuant
to notice, before Jerome G. Arnold, a Compensation
Judge of the Office of Administrative Hearings on
March 27, 2017, in Duluth, Minnesota.
Mark L. Rodgers, Attorney at Law, 1421
Bemidji Avenue North, Bemidji, MN 56601,
appeared on behalf of the employee. Laura B. Zajac,
Attorney at Law, 443 Lafayette Road North, St.
Paul, MN 55155, appeared on behalf of the Special
Compensation Fund. Brenda Brumond appeared as a
representative of employer Rhino Contracting, Inc.
The Special Compensation Fund’s Motion to
Dismiss the Employee’s Amended Claim Petition
filed December 12, 2012, initiated this proceeding.
The record was left open for employee’s
additional argument which was received on April
25, 2017.
Notice is hereby given that any party
aggrieved by the decision herein may appeal the
decision, or any portion thereof, to the Workers’
Compensation Court of Appeals. An appeal must be
filed with the Chief Administrative Law Judge at
P.O. Box 64620, St. Paul, Minnesota 55164-0620, no
later than 30 days following service of this order; it
must contain the information required by Minn. Stat.
§176.421; and must be accompanied by the $25.00 fee
required by Minn. Stat. §176.421, subd. 4.
STATEMENT OF ISSUES

44a

1.
Whether the employee's claim in the
Minnesota Workers’ Compensation Courts is
barred under the provisions of Minn. Stat. §
176.041, subd. 5.
Based upon all of the files, records, and
proceedings herein, the Compensation Judge makes
the following:
FINDINGS
1.
The employee, a resident of Minnesota,
traveled to Grand Forks, North Dakota in the
spring of 2011 and obtained an application for
employment at the main office of Rhino
Contracting, Inc. in Grand Forks, North
Dakota. The employee was hired on April 7,
2011 as a seasonal employee for the North
Dakota employer, Rhino Contracting, Inc. at its
main offices in Grand Forks, North Dakota.
2.
The employee worked for Rhino
Contracting, Inc. during the 2011 construction
season laying and installing fiber optic cables.
At the end of the construction season, he was
laid off and collected unemployment awaiting
to be recalled in the spring of 2012.
3.
In the spring of 2012, the employee was
recalled by Rhino Contracting, Inc. for work and
following a startup meeting and doing testing at
the employer's office in Grand Forks, North
Dakota, he returned to work for Rhino
Contracting, Inc. for the 2012 construction
season.

45a

4.
On September 24, 2012, the employee
while working for employer Rhino Contracting,
Inc. in Minnesota suffered an alleged low back
injury.
5.
As of the date of September 24, 2012, the
employee in the 2012 calendar year had not
worked more than 15 consecutive days in
Minnesota nor had the employee worked more
than 240 hours in Minnesota during the 2012
calendar year. The employee has not worked for
the employer since September 24, 2012. In the
calendar year 2012, the employee worked in
Minnesota no more than 44.5 hours. The
employee has no evidence to contradict that he
worked more than 44.5 hours in Minnesota
during the 2012 calendar year, or that he
worked more than 15 consecutive days in
Minnesota.

6.
Minn. Stat.§ 176.041, subd. 4 and subd.
5b read as follows:
Subd.
4.
Out-of-state
employment. If an employee who
regularly performs the primary
duties of employment outside of this
state or is hired to perform the
primary duties of employment
outside of this state receives an
injury within this state in the
employ of the same employer, such
injury shall be covered within the
provisions of this chapter if the

46a

employee chooses to forgo any
workers’
compensation
claim
resulting from the injury that the
employee may have a right to
pursue in some other state,
provided
that
the
special
compensation fund is not liable for
payment of benefits pursuant to
section 176.183 if the employer is
not insured against workers’
compensation liability pursuant to
this chapter and the employee is a
nonresident of Minnesota on the
date of the personal injury.
Subd.
5b.
North
Dakota
employers. Notwithstanding the
provisions
of
subdivision
4,
workers’ compensation benefits for
an employee hired in North Dakota
by a North Dakota employer,
arising out of that employee’s
temporary work in Minnesota,
shall not be payable under this
chapter. North Dakota workers’
compensation law provides the
exclusive remedy available to the
injured worker. For purposes of
this subdivision, temporary work
in Minnesota for a period of time
not to exceed 15 consecutive
calendar days or a maximum of
240 total hours.
7.

The employee’s claim of an alleged low

47a

back injury on September 24, 2012, while
working for North Dakota employer, Rhino
Contracting, Inc., in Minnesota is not
compensable under the Minnesota Workers’
Compensation Act.
8. The employee’s constitutional claims related
to the validity of Minn. Stat. § 176.041, subd. 5b
are preserved for determination by Minnesota’s
Judiciary Courts.
9.
The employee has been represented in
these proceedings by Attorney Mark L. Rodgers
pursuant to a standard 25/20 workers’
compensation contingency retainer agreement.
Based upon the foregoing Findings,
Compensation Judge makes the following:

the

ORDER
1. The Motion of the Special Compensation
Fund to Dismiss the employee’s Amended
Claim Petition filed December 12, 2014 is
granted as the employee’s claim for benefits
under the Minnesota Workers' Compensation
Act is barred by Minn. Stat.§ 176.041, subd.
5b.
2. The employee's constitutional claims related
to the validity of Minn. Stat. § 176.041, subd.
5b are preserved for determination by the
Judiciary Courts of Minnesota.

48a

OFFICE OF ADMINISTRATIVE
HEARINGS WORKERS’ COMPENSATION
SECTION

Dated at Duluth, Minnesota
This 11th day of May, 2017.
JGA/ps
Digitally Recorded

s/ Jerome G. Arnold
JEROME G.
ARNOLD
Compensation Judge
(218) 302-6360
TDD: (651) 361-7878

MEMORANDUM
In the spring of 2011, the employee a
Minnesota resident traveled to the main office of
Rhino Contracting, Inc. located in Grand Forks,
North Dakota where he was hired as a seasonal
employee on April 7, 2011. In the fall of 2011, he was
laid off for the winter. In the spring of 2012, the
employee was recalled and worked for the employer
until he suffered an injury while working for the
employer in Minnesota on September 24, 2012.
Most of the employee’s work in 2012 for his
North Dakota employer was done in North Dakota.
However, the employee also worked in Minnesota
including September 24, 2012. During the 2012
calendar year, the employee worked at most about
45 hours in Minnesota and did not work 15
consecutive days in Minnesota.
The employee initially received workers'
compensation benefits under North Dakota’s
workers’ compensation system. On June 19, 2014,

49a

the employee initiated the present proceedings
under the Minnesota Workers' Compensation Act.
On December 12, 2014, he filed an Amended Claim
Petition naming the employer/an alleged insurer and
the Minnesota Special Compensation Fund.
In response to the Amended Claim Petition,
the Special Compensation Fund filed a Motion to
Dismiss alleging employee's claim was barred by the
provisions of Minn. Stat. § 176.041, subd. 5b. A
special term conference was set for April 13, 2015 to
hear the Special Compensation Fund's Motion to
Dismiss. The employee requested additional time for
discovery and the conference on the Special
Compensation Fund's motion was continued to July
13, 2015. On July 6, 2015, the employee filed a
Motion to Strike the matter from the active trial
calendar which was granted by Order dated July 8,
2015. By Order dated July 7, 2016 and November 4,
2016, the stricken status was continued at the
request of the employee. On February 2, 2017, the
employee requested reinstatement of his Amended
Claim Petition which was granted on February 7,
2017. Also, on February 7, 2017, a Special Term
Conference was set for March 27, 2017, to hear the
Special Compensation Fund's Motion to Dismiss.
On March 27, 2017, the Special Compensation
Fund's Motion to Dismiss was heard. At the
conclusion of the conference, the employee requested
additional time to submit a brief and possible
additional evidence. The record was left open
through April 28, 2017.
Under the provision of Minn. Stat. § 176.041,

50a

subd. 5b a Minnesota resident hired in North Dakota
by a North Dakota employer is not entitled to
Minnesota Workers' Compensation benefits when
injured in Minnesota unless the employee has
worked in Minnesota for 15 consecutive days or more
than 240 hours during the calendar year. Despite the
time given to the employee spanning more than 2
years, the employee has provided no evidence that he
was not hired in Grand Forks, North Dakota by a
North Dakota employer. He also has provided no
evidence that he worked more than 240 hours in
Minnesota or more than 15 consecutive days in
Minnesota during the 2012 calendar year. In accord,
the court has granted the Special Compensation
Fund's Motion to Dismiss.
JGA

